OFFICE OF INSPECTOR GENERAL

 DEPARTMENT OF VETERANS AFFAIRS




   SEMIANNUAL REPORT TO CONGRESS

  APRIL 1, 2007 - SEPTEMBER 30, 2007

                                Message from the Inspector General



This Semiannual Report to Congress focuses on the accomplishments of
the VA Ofﬁce of Inspector General (OIG) for the reporting period from
April 1, 2007, through September 30, 2007. Issued in accordance with
the Inspector General Act of 1978, as amended, it presents results based
on OIG strategic goals, which cover the areas of health care delivery,
beneﬁts processing, ﬁnancial management, procurement practices, and
information management.
During this reporting period, OIG issued 109 reports on VA programs
and operations. We recommended systemic improvements and
efﬁciencies in quality of care, accuracy of beneﬁts, budget processes,
economy in procurement, and information security. OIG audits,
investigations, and other reviews identiﬁed over $360 million in monetary
beneﬁts, for a return of $10 for every dollar expended on OIG oversight.
Our criminal investigators have closed 513 investigations and made
275 arrests. OIG investigative work also resulted in 299 administrative
sanctions.
OIG has particularly focused in this reporting period on assessing and improving VA efforts to support
returning Operation Iraqi Freedom/Operation Enduring Freedom veterans. We have also worked to
strengthen VA information management and security and improve VA stewardship in procurement.
Our Ofﬁce of Healthcare Inspections (OHI) continued to review VA research programs, and conducted
several inspections evaluating the effectiveness of VA’s mental health efforts. OHI used VA and
Department of Defense data to create an analytical database incorporating details about all service
members discharged between July 1, 2005, and September 30, 2006, permitting independent
analytical review of the transition of care for injured veterans. OHI also testiﬁed before congressional
committees regarding health care issues in Hawaii, North Carolina, and rural VA facilities throughout
the United States.
Our Ofﬁce of Audit has focused on conducting national audits regarding veterans health care and
beneﬁts issues. In addition, Audit has reviewed VA’s procurement acquisition strategies and controls.
The recommendations we made in these audits will result in improved internal controls and will
strengthen the VA’s ability to provide needed health care and beneﬁts to veterans and their families.
Further, our newly published audit of VA information security noted some progress in resolving
problems identiﬁed over the past several years while also disclosing additional security concerns.
The Ofﬁce of Contract Review conducted preaward and postaward reviews. These reviews were
speciﬁcally designed to improve VA’s procurement process by protecting the interests of the
Government and by identifying and resolving contractors’ overcharges. Those efforts resulted in
savings and dollar recoveries of nearly $75 million. On June 27, 2007, OIG testiﬁed on VA internal
contracting oversight deﬁciencies before the House Committee on Veterans’ Affairs Subcommittee
on Oversight and Investigations. Our testimony highlighted areas where VA can improve controls
over contract modiﬁcations, use of expired funds, and approval of projects to ensure the Department
effectively serves America’s veterans and taxpayers.
OIG appreciates the continuing support we receive from the Acting Secretary and senior management.
We look forward to further cooperation with VA and Congress to make VA as effective as possible in
caring for our Nation’s veterans.




GEORGE J. OPFER
Inspector General
Semiannual Report to Congress   April 1, 2007–September 30, 2007





2

                                           TABLE OF CONTENTS


Message from the Inspector General .................................................................................... 1


Statistical Highlights ............................................................................................................ 5


VA and OIG Mission, Organization, and Resources ............................................................... 6


Health Care Delivery............................................................................................................. 7


Beneﬁts Processing ............................................................................................................ 12


Financial Management........................................................................................................ 14


Procurement Practices ....................................................................................................... 16


Information Management................................................................................................... 19


Other Signiﬁcant OIG Activities .......................................................................................... 21


Appendix A–OIG Reports.................................................................................................... 24


Appendix B–Status of OIG Reports Unimplemented for Over 1 Year................................... 29 


Appendix C–Inspector General Act Reporting Requirements .............................................. 32

Semiannual Report to Congress   April 1, 2007–September 30, 2007





4

           April 1, 2007–September 30, 2007                                                 V
                                                                                            	 A Ofﬁce of Inspector General


                                             Statistical Highlights
                                                                                            Reporting Period        FY 2007
DOLLAR IMPACT ($$$ in Millions)
        Better Use of Funds ......................................................................... $90.3           $116.1
        Fines, Penalties, Restitutions, and Civil Judgments ................................. $4.7                    $201.5
        Fugitive Felon Program .................................................................. $245.7              $303.9
        Savings and Cost Avoidance ............................................................ $11.0                  $28.4
        Questioned Costs .............................................................................. $5.6           $11.0
        OIG Dollar Recoveries ........................................................................ $2.7             $9.3
        Contract Review Savings and Dollar Recoveries ................................... $74.9                       $149.9
RETURN ON INVESTMENT
        Dollar   Impact   ($360.0)/Cost of OIG Operations ($35.3) .........................10:1
        Dollar   Impact   ($670.2)/Cost of OIG Operations ($70.6) .................................................... 9:1

        Dollar   Impact   ($74.9)/Cost of Contract Review Operations ($1.7) ............44:1

        Dollar   Impact   ($149.9)/Cost of Contract Review Operations ($3.4) ....................................44:1

OTHER IMPACT
        Arrests* ............................................................................................ 275            580

        Indictments ....................................................................................... 157              336

        Criminal Complaints ........................................................................... 116                  242

        Convictions ....................................................................................... 177              389

        Pretrial Diversions ................................................................................24                45

        Fugitive Felon Apprehensions by Other Agencies Using VA OIG Data ...........70                                       151

        Administrative Sanctions ..................................................................... 299                   711

ACTIVITIES
Reports Issued
     CAP Reviews........................................................................................22                    45

     Healthcare Inspections ..........................................................................30                      54

     Audits.................................................................................................10                19

     Administrative Investigations .................................................................. 4                       13

     Joint Reviews........................................................................................ 0                   1

     Contract Reviews .................................................................................43                     85

Investigative Cases
     Opened............................................................................................. 467            1,089

     Closed .............................................................................................. 513          1,181
Healthcare Inspections Activities
      Clinical Consultations ............................................................................. 2                   	3
      Administrative Case Closures .................................................................. 1                       13
Hotline Activities
        Cases Opened.................................................................................... 565            1,073

        Cases Closed ..................................................................................... 607          1,199


   *	
        Includes the apprehension of 64 and 168 fugitive felons by OIG, respectively, for this period and
        FY 2007.




                                                                                                                         5
Semiannual Report to Congress                            April 1, 2007–September 30, 2007


                VA and OIG Mission, Organization,
                         and Resources

The Department of Veterans Affairs
The Department’s mission is to serve America’s veterans and their families with dignity
and compassion and to be their principal advocate in ensuring that they receive the care,
support, and recognition earned in service to the Nation. The VA motto comes from
Abraham Lincoln’s second inaugural address, given March 4, 1865, “to care for him who
shall have borne the battle and for his widow and his orphan.”
While most Americans recognize VA as a Government agency, few realize that it is the
second largest Federal employer. For ﬁscal year (FY) 2007, VA has a $76.9 billion budget
and almost 220,000 employees serving an estimated 24 million living veterans. To serve
the Nation’s veterans, VA maintains facilities in every state, the District of Columbia, the
Commonwealth of Puerto Rico, Guam, and the Republic of the Philippines.
VA has three administrations that serve veterans:
    • Veterans Health Administration (VHA) provides health care.
    • Veterans Beneﬁts Administration (VBA) provides income and readjustment beneﬁts.
    • National Cemetery Administration provides interment and memorial beneﬁts.
For more information, please visit the VA Internet home page at www.va.gov.

VA Ofﬁce of Inspector General
The Ofﬁce of Inspector General (OIG) was administratively established on January 1, 1978,
to consolidate audits and investigations into a cohesive, independent organization. In
October 1978, Public Law 95-452, the Inspector General Act, was enacted, establishing a
statutory Inspector General (IG) in VA. It states that the IG is responsible for:
(1) conducting and supervising audits and investigations; (2) recommending policies
designed to promote economy and efﬁciency in the administration of, and to prevent
and detect criminal activity, waste, abuse, and mismanagement in VA programs and
operations; and (3) keeping the Secretary and Congress fully informed about problems and
deﬁciencies in VA programs and operations and the need for corrective action. The IG has
authority to inquire into all VA programs and activities as well as the related activities of
persons or parties performing under grants, contracts, or other agreements. Inherent in
every OIG effort are the principles of quality management (QM) and a desire to improve
the way VA operates by helping it become more customer-driven and results-oriented.
OIG, with 470 employees, is organized into 3 line elements: the Ofﬁces of Investigations, 

Audit, and Healthcare Inspections, plus a contract review ofﬁce and a support element. 

FY 2007 funding for OIG operations provides $70.6 million from appropriations. The Ofﬁce 

of Contract Review receives $3.4 million through a reimbursable agreement with VA for 

contract review services including preaward and postaward contract reviews and other 

pricing reviews of Federal Supply Schedule (FSS) contracts. In addition to the Washington, 

DC, headquarters, OIG has ﬁeld ofﬁces located in 23 cities throughout the country.

OIG keeps the Secretary and Congress fully and currently informed about issues affecting 

VA programs and the opportunities for improvement. In doing so, OIG staff strives to be 

leaders and innovators, and to perform their duties fairly, honestly, and with the highest 

professional integrity. For more information, please visit the OIG Internet home page at 

www.va.gov/oig.





6
April 1, 2007–September 30, 2007                              VA Ofﬁce of Inspector General


                            Health Care Delivery
The health care that VHA provides veterans, including those recently returned from
Operation Iraqi Freedom/Operation Enduring Freedom (OIF/OEF), is consistently ranked
among the best in the Nation. OIG oversight helps VHA maintain a fully functional
QM program that ensures high-quality patient care and safety, and safeguards against
the occurrence of adverse events.

OFFICE OF HEALTHCARE INSPECTIONS
The OIG Ofﬁce of Healthcare Inspections (OHI) focuses on quality of care issues in
VHA and assesses VHA services. During this reporting period, OHI published 22 cyclical
Combined Assessment Program (CAP) reviews to evaluate quality of care issues in
VHA medical facilities, and 30 hotline reports and national reviews.

OIG Reviews the Care and Death of OIF Veteran in Minnesota
In January 2007, a U.S. Marine Corps OIF veteran committed suicide in a friend’s home.
This patient had received extensive health care over the previous 20 months from the
VA Medical Center (VAMC) in Minneapolis, Minnesota. Although a patient of the
Minneapolis VAMC, the veteran visited the St. Cloud VAMC, 75 miles to the northwest
of Minneapolis, for the ﬁrst time 5 days before his death, and started the process to be
admitted to a St. Cloud VAMC elective residential treatment program. At the request of
the Secretary and members of Congress, OIG performed a comprehensive inspection of
the Minneapolis and St. Cloud VAMCs’ health care provided to the patient, and examined
the circumstances of the patient’s death. OIG made recommendations to improve the
screening process for the St. Cloud VAMC elective residential program. (Healthcare
Inspection, Review of the Care and Death of a Veteran Patient, VA Medical Centers,
St. Cloud and Minneapolis, Minnesota)

Inspection Reviews VHA Mental Health Strategies for Suicide Prevention
OIG surveyed all VAMCs between December 2006 and February 2007 to assess
the implementation of action items that pertain to suicide prevention within the
VHA Mental Health Strategic Plan (MHSP). The report summarizes what is known about
the characteristics, nature, and rates of suicide, as well as related reports from the Surgeon
General of the United States, the Institute of Medicine, and the President’s New Freedom
Commission on Mental Health, as well as VHA’s MHSP. OIG’s report recommendations
included arranging for 24-hour crisis and mental health care availability, and that all
non-clinical staff who interact with veterans should receive mandatory training. Inspectors
stated that VHA should establish a centralized mechanism to select emerging best practices
for screening, assessment, referral, and treatment, as well as to facilitate system-wide
implementation in order to ensure a single VHA standard of suicide prevention excellence.
(Healthcare Inspection, Implementing VHA’s Mental Health Strategic Plan Initiatives for
Suicide Prevention)

Inspectors Find Coronary Bypass Surgery Delays in Florida
An OIG review to determine the validity of allegations of poor care by a cardiologist and
of mismanagement of cardiovascular services at the Bay Pines VA Healthcare System
concluded that no patients suffered major long-term adverse outcomes resulting from
actions of the cardiologist. However, the review did ﬁnd that waiting times for coronary
artery bypass surgery often exceeded 3 months, especially when patients were referred
within the VA health care system. Inspectors also found evidence suggesting minimal
involvement of cardiologists in consultations conducted by nurse practitioners. OIG
recommended that the health care system director take appropriate steps to prevent
undue delays for patients awaiting coronary bypass surgery and in the reporting of results
of echocardiograms, and review speciﬁc expectations regarding the extent to which
cardiologists are involved in the care of patients referred to cardiology and managed
primarily by nurse practitioners. (Healthcare Inspection, Quality of Care Issues in
Cardiology, Bay Pines VA Healthcare System, Bay Pines, Florida)




                                                                                             7
Semiannual Report to Congress                            April 1, 2007–September 30, 2007


Review Substantiates Research Improprieties at Arizona Facility
An OIG review of research impropriety allegations at the Carl T. Hayden VAMC in Phoenix
substantiated that two unlicensed physicians performed medical activities. A nurse also
performed functions not included in her “scope of practice” activities, and laboratory
data was not reviewed in a timely manner. OIG also found signiﬁcant problems with the
accuracy of inventories of critical materials. Inspectors made recommendations to protect
patient safety, establish procedures for ensuring that radioactive wastes are managed
in compliance with all applicable VA and Federal regulations and policies, delineate the
responsibilities of VA laboratories for patient notiﬁcation of abnormalities, and deﬁne
conﬂict of interest in terms applicable to research activities of VAMCs and VA-afﬁliated
non-proﬁt corporations. (Healthcare Inspection, Research Practices at Carl T. Hayden
VA Medical Center, Phoenix, Arizona)

Inspectors Review Facilities’ Risk of Legionnaire’s Disease
OIG conducted a survey of 159 acute-care and extended-care inpatient facilities to review
steps VHA has taken to reduce the risk of Legionnaire’s Disease (LD). The review revealed
a wide range of practices, some with potential risk. Because the degree of risk to patients
may vary considerably, OIG recommended that the Under Secretary for Health ensure that
inpatient facilities where transplants are performed have a written plan to address the
prevention of LD and that all inpatient facilities periodically assess local risk for LD using
speciﬁc guidelines developed by VHA experts. (Assessment of Legionnaire’s Disease Risk
in Veterans Health Administration Inpatient Facilities)

Contracting Errors Leave North Texas HCS Inadequately Managed
An OIG inspection of the VA North Texas Health Care System (HCS) and its medical
school afﬁliate concluded eye clinic employees had been supervised and managed by a
contractor-employed administrator in conﬂict with speciﬁc acquisition regulations. Contract
terms did not call for the contractor to provide administrative oversight of clinics or VA
staff. Acquisition planning for ophthalmology services offered no support for stafﬁng
requirements, and the agreement did not receive a required preaward review. OIG also
found that eye clinic management kept a “shadow” system of medical records in violation
of VHA and HCS policy regarding the computerized patient record system and patient
privacy. The review recommended corrective action. (Healthcare Inspection, Management
of Government Resources and Personnel Practices, VA North Texas Health Care System,
Dallas, Texas)

Inspectors Find Los Angeles Patient’s Cancer Diagnosis Was Delayed
An OIG review found that a patient’s colorectal cancer (CRC) diagnosis was delayed
by clinicians of the VA Greater Los Angeles Healthcare System in Los Angeles, and
concluded that he might have had a better outcome if efforts had been made to follow up
with him during his initial presentation and if diagnostic procedures had occurred more
expeditiously. OIG could not substantiate or refute allegations that several other patients
experienced delays and that clinicians had not been fully informed about the procedures
related to disclosing adverse events at the health care system. OIG recommended that
management implement all planned actions to improve CRC prevention, diagnosis, and
timely follow-up, and assess gastroenterology clerical efﬁciencies and stafﬁng adequacy.
(Healthcare Inspection, Delayed Cancer Diagnosis, VA Greater Los Angeles Healthcare
System, Los Angeles, California)

Review Substantiates Complaint of Contaminated Instruments in Phoenix
A review of allegations related to the delivery of contaminated instruments to the operating
room of the Carl T. Hayden VAMC in Phoenix substantiated that the Supply, Processing,
and Distribution (SPD) department had ongoing problems with contaminated instruments
and packaging. However, OIG healthcare inspectors determined that no contaminated
instruments were actually used in surgery. Medical center managers aggressively identiﬁed
and corrected SPD issues by completing the SPD construction project, holding weekly
meetings, providing consultative services by two established VA experts, hiring additional
SPD staff, providing staff education and training, increasing sterilizer maintenance checks,
and ensuring ongoing QM monitoring. (Healthcare Inspection, Alleged Quality Control




8
April 1, 2007–September 30, 2007                            VA Ofﬁce of Inspector General


Issues in Supply Processing and Distribution, Carl T. Hayden VA Medical Center, Phoenix,
Arizona)

Augusta VAMC Did Not Ensure Safe Environment of Mental Health Care
OIG’s review of a veteran’s suicide at the Augusta VAMC found that the patient received
appropriate clinical assessment and services, but determined that the VAMC did not ensure
a safe environment of care. Inspectors recommended that the VAMC take appropriate
action regarding responsible managers whose failure to identify safety hazards placed
mental health patients at risk, and assure that all managers and employees conducting
environment-of-care inspections are adequately trained and knowledgeable. OIG further
recommended that the facility follow National Center for Patient Safety (NCPS) guidance
when conducting internal reviews and notify NCPS when patient safety hazards may require
nationwide alerts. (Healthcare Inspection, Patient Suicide, VA Medical Center, Augusta,
Georgia)

Review Conﬁrms Improvements Were Made at North Carolina VAMC
OIG conducted a review to follow up on a 2005 VA Ofﬁce of the Medical Inspector (OMI)
report and a 2006 OIG CAP review, and to evaluate communication, quality of care,
performance measures, and environment of care. Inspectors found that medical center
managers in Salisbury implemented corrective actions that resolved or improved the
deﬁciencies cited in the earlier reports, noting that communication processes between
OMI and OIG needed improvement. OIG found that the medical center generally met or
exceeded performance measure goals, except that private patient bathrooms on the locked
mental health units had exposed pipes that could pose a safety risk to patients, and tunnels
connecting buildings on the campus did not have emergency call systems accessible to
patients or visitors. OIG made recommendations to address these issues, and has initiated
communication improvement with OMI. (Healthcare Inspection, Follow-Up Evaluation of
the W.G. (Bill) Hefner VA Medical Center, Salisbury, North Carolina)

Unlicensed Physicians Practiced Medicine at VA South Texas Facility
OIG conducted an inspection at the South Texas Veterans Health Care System in
San Antonio to review the validity of allegations that unlicensed physicians hired
as research assistants had engaged in clinical activities constituting the practice of
medicine. Inspectors determined that certain unlicensed physicians functioned outside
their scopes of practice, but a lack of adequate medical documentation impaired OIG’s
ability to determine the extent and magnitude of the problem. OIG recommended that
management develop and implement policies to minimize the risk that research subjects
might confuse unlicensed physician research assistants with licensed clinicians. A second
recommendation was to ensure that research personnel function within their scope of
practice. OIG also recommended that management require sufﬁcient documentation in
the medical record of research visits to permit the Research and Development Committee
to determine whether research personnel are functioning within their scopes of practice as
required by VA policy. (Healthcare Inspection, Alleged Practice of Medicine by Unlicensed
Research Assistants, South Texas Veterans Health Care System, San Antonio, Texas)

OIG Uses DoD and VA Data To Create Joint Analytical OIF/OEF Database
In July 2006, the Department of Defense (DoD) Inspector General and VA OIG agreed to
jointly evaluate the medical care transition process for injured OIF/OEF service members
from DoD to VA, because only a very limited quantitative characterization of care
transition issues was possible using available Government data. OIG used relevant DoD
and VA data ﬁles to create an analytical database incorporating details about all 494,147
service members discharged from July 1, 2005, to September 30, 2006. OIG released
an informational report describing the database, providing background for understanding
and interpreting ongoing and planned studies using this unique database. The report also
presents selected descriptive statistics of veterans who comprise the database population.
(Informational Report, Quantitative Assessment of Care Transition: The Population-Based
LC Database)




                                                                                             9
Semiannual Report to Congress                           April 1, 2007–September 30, 2007


OFFICE OF AUDIT
OIG audits of VA programs focus on the effectiveness of health care delivery for veterans.
These audits identify opportunities for enhancing management of program operations and
provide VA with constructive recommendations to improve health care delivery.

Follow-up Finds VA Under Reporting Outpatient Waiting Times
At the request of the Senate Committee on Veterans’ Affairs, OIG audited VHA outpatient
waiting times to follow up on its 2005 report, Audit of the Veterans Health Administration’s
Outpatient Scheduling Procedures. Conditions identiﬁed in the 2005 report still exist.
VHA has established detailed procedures for schedulers to use when creating outpatient
appointments but has not implemented effective mechanisms to ensure scheduling
procedures are followed. As a result, the accuracy of VHA’s reported waiting times cannot
be relied on, and electronic waiting lists at the medical facilities reviewed are incomplete.
VHA has not fully implemented ﬁve of the eight recommendations in the 2005 report.
(Audit of the Veterans Health Administration’s Outpatient Waiting Times)

OFFICE OF INVESTIGATIONS
The OIG Ofﬁce of Investigations (OI) conducts criminal investigations into allegations of
patient abuse, facility security, drug diversion, theft of VA pharmaceuticals or medical
equipment, false claims for health care beneﬁts, and other frauds relating to the delivery
of health care to millions of veterans. In the area of health care delivery, OIG opened
127 cases, made 99 arrests, and obtained $1.4 million in ﬁnes, restitution, penalties, and
civil judgments as well as savings, efﬁciencies, cost avoidance, and recoveries.

Houston VAMC Staff Psychiatrist Arrested for Sexual Assault
A former Houston VAMC staff psychiatrist was arrested after being indicted for sexual
assault for having sexual relations with one of her veteran patients over a 20 month period
in the psychiatrist’s residence and VAMC ofﬁce. The psychiatrist resigned
from her position as a result of the investigation.

Seattle VAMC Nurse Diverts Controlled Substances and Alters Records
A nurse employed at the Seattle VAMC pled guilty to unlawful possession of a Schedule II
controlled substance after an OIG investigation determined that for approximately 1 year
the former nurse diverted several controlled substances from the VAMC’s ACUDOSE drug
dispensing system and altered patient records in the computer database.

Kidnapper Convicted after Mississippi Veteran Escapes during Katrina
A personal home caregiver was found guilty of kidnapping after an OIG investigation
determined that the defendant and a second subject imprisoned a veteran in a mobile
home in Mississippi for 5 months, including while the subjects ﬂed the area due to
Hurricane Katrina. The veteran escaped from the mobile home during the storm and was
subsequently admitted to the Jackson VAMC.

Memphis VA Employee Sentenced for Workers’ Compensation Fraud
A former VA employee in Memphis, Tennessee, was sentenced to 42 months’ incarceration
and 36 months’ supervised release, and was ordered to pay $357,100 in restitution after
being found guilty of making false statements to obtain workers’ compensation beneﬁts
and bankruptcy fraud. The defendant falsely reported he was unemployed and had no
earned income, despite operating his own contracting business.

Martinsburg VA Pharmacist Guilty of Stealing Patients’ Pain Medication
A former VA pharmacist in Martinsburg, West Virginia, pled guilty to using his position
to illegally obtain morphine after a multi-agency investigation conducted with Drug
Enforcement Administration Diversion Control, Food and Drug Administration (FDA)
Criminal Investigation Division, VA police, and a state regulatory agency determined that
he was illegally accessing drug dispensing machines to steal oxycodone and morphine for
personal use. The pharmacist admitted he removed several milliliters of the drugs from




10
April 1, 2007–September 30, 2007                             VA Ofﬁce of Inspector General


various Pyxis medication dispensers and replaced the stolen amount with saline solution on
approximately 76 occasions, resulting in patients receiving diluted pain medication.

Texas VA Nurse and Co-conspirators Guilty in 9-Year Drug Theft
A joint OIG, VA police, and U.S. Postal Inspection Service (USPIS) investigation found that
a Bonham VAMC nurse stole controlled and non-controlled substances from the VAMC for
approximately 9 years, conspiring with another relative to distribute controlled substances
through the nurse’s incarcerated grandson. The nurse was sentenced to 180 days’ home
conﬁnement and 2 years’ probation. In addition, two co-conspirators pled guilty to theft of
Government property and conspiracy to distribute a controlled substance.

OIG HOTLINE
In the area of health care, the OIG Hotline receives allegations that include patient
abuse, theft of VA pharmaceuticals or medical equipment, and false claims for health care
beneﬁts. The Hotline oversees the review and resolution of serious problems, and by doing
so, contributes to raising the quality of care for the Nation’s veterans.

VAMC Stafﬁng Shortages Caused Inadequate Cleaning in Amarillo
A VHA review determined that stafﬁng shortages in the housekeeping division of a
medical center in Amarillo, Texas, prevented deep cleaning in nursing home rooms for
approximately an 18-month period. Management augmented staff and resumed quarterly
deep cleanings with stricter oversight to ensure an appropriate level of cleanliness is
maintained. Additionally, the review revealed that, in response to persistent reports of
black mold in various areas of a medical center, management developed a formalized plan
to catalog and track all reported moisture intrusions with a rapid response team trained in
mold assessment and abatement.




                                                                                         11
Semiannual Report to Congress                            April 1, 2007–September 30, 2007


                             Beneﬁts Processing
Many veterans, especially returning OIF/OEF veterans, need a variety of beneﬁts and
services in order to transition to civilian life. OIG works to improve the delivery of these
beneﬁts and services by identifying opportunities to improve the quality, timeliness, and
accuracy of beneﬁts processing. In addition, OIG reduces criminal activity in the delivery
of beneﬁts through proactive and targeted audit and investigative efforts.

OFFICE OF AUDIT
OIG performs audits of veterans’ beneﬁts programs focusing on the effectiveness
of beneﬁts delivery to veterans, dependents, and survivors. These audits identify
opportunities for enhancing the management of program operations and provide VA with
constructive recommendations to improve the delivery of beneﬁts.

VBA Compensation Beneﬁt Adjustment Controls Need Strengthening
OIG’s audit of VBA controls to minimize avoidable overpayments determined that VBA did
not have effective controls to ensure that VA Regional Ofﬁce (VARO) staff took prompt
action to adjust compensation beneﬁts. Avoidable overpayments were identiﬁed at 46 of
the 57 VAROs. Additionally, VBA did not effectively monitor and report its compensation
beneﬁt adjustment workload. OIG estimated that VBA and beneﬁciaries could have
avoided $50.8 million in overpayments had VBA staff processed adjustments promptly.
OIG recommended that the Under Secretary for Beneﬁts develop improved standards
on initiating action on compensation beneﬁt adjustments, monitor timeliness, and take
corrective action when necessary. (Audit of VBA Controls to Minimize Compensation
Beneﬁt Overpayments)

OFFICE OF INVESTIGATIONS
VA administers a number of ﬁnancial beneﬁts programs for eligible veterans and certain
family members. Among the beneﬁts are VA guaranteed home loans, education,
insurance, and monetary beneﬁts provided by the Compensation and Pension (C&P)
Service. With respect to VA guaranteed loans, OI conducts investigations of loan
origination fraud, equity skimming, and criminal conduct related to management of
foreclosed loans or properties.
C&P investigations routinely concentrate on payments being made to ineligible individuals.
For example, a beneﬁciary may feign a medical disability to deliberately defraud the
VA compensation program. The VA pension program, which is based on the beneﬁciary’s
income, is often defrauded by individuals who fail to report income in order to stay below
the eligibility threshold for these beneﬁts. An ongoing proactive income veriﬁcation match
identiﬁes possible fraud in the pension program. OI also conducts an ongoing death
match project that identiﬁes deceased beneﬁciaries of the VA C&P program whose beneﬁts
continue because VA was not notiﬁed of the death. In this reporting period, the death
match project recovered $2.8 million, with another $1.3 million in anticipated recoveries.
Generally, family members of the deceased are responsible for this type of fraud. In
the area of beneﬁts processing, OIG opened 260 cases, made 108 arrests, and had
$16.4 million in ﬁnes, restitution, penalties, and civil judgments as well as savings,
efﬁciencies, cost avoidance, and recoveries.

Ohio Husband and Wife Guilty in Taking Deceased Veteran’s Checks
A Columbus, Ohio, man who pled guilty to theft of Government funds was sentenced to
serve 1 year and 1 day incarceration plus 3 years’ probation, and was also ordered to pay
$156,759 in restitution. The man and his wife—who previously pled guilty to making false
statements—received, forged, and negotiated VA pension checks issued to a deceased
veteran who had lived with them.

Wife and Son of Missing Virginia Veteran Convicted for Using His Beneﬁts
The wife and son of a missing Spotsylvania County, Virginia, veteran were convicted
on several charges after a joint investigation with Social Security Administration (SSA)



12
April 1, 2007–September 30, 2007                             VA Ofﬁce of Inspector General


OIG, Federal Bureau of Investigation, U.S. Secret Service, and local police disclosed that
despite the disappearance of the veteran in 1993, the wife and son continued to receive
and personally use his VA and Social Security beneﬁts. The total loss to VA and SSA is
$366,434. Local police continue to investigate the disappearance of the veteran.

Landscaper Sentenced for Unemployability Fraud in Florida
A Bradenton, Florida, veteran was sentenced to 15 months’ incarceration and 36 months’
probation, and was ordered to make restitution of $176,568, following a conviction for mail
fraud related to a scheme to fraudulently obtain VA unemployability beneﬁts and Social
Security beneﬁts. A joint investigation with SSA OIG and USPIS revealed that the veteran
had been operating a landscaping business while falsely claiming to be incapable of gainful
employment.

Escaped Texas Convict Captured in Theft, Forgery of Pension Check
An OIG investigation determined that a suspect received, forged, and negotiated a
VA pension check of a veteran whose identity he had assumed to gain access to VA health
care beneﬁts. The subject, who is not a veteran, was arrested after being indicted for
forgery. Additional Federal charges of false statements and health care fraud are pending,
based on the defendant fraudulently receiving approximately $100,000 in VA health care
beneﬁts at the Houston VAMC. Investigators also found that the defendant escaped from
a prison in Alabama in 1978 and an additional warrant has now been issued.

Wife of Deceased Beneﬁciary Indicted for Theft of Federal Funds in Mesa
The wife of a deceased VA beneﬁciary in Mesa, Arizona, was indicted for theft of
Government funds after an OIG investigation determined that she failed to notify VA or SSA
of her husband’s death for approximately 8 years, continuing to use his VA and
SSA beneﬁts for her personal needs. The loss to VA is $192,175.

New Hampshire Veteran Arrested for Fabricating Beneﬁts Claim
Despite an Exeter, New Hampshire, veteran’s claims of being partially paralyzed, an
investigation revealed that he owned and worked at two businesses, work that included
welding, bending, and lifting. The veteran used a cane and walked with a severe limp only
when at his medical appointments. The total loss to VA and SSA is $185,000.

OIG HOTLINE
The OIG Hotline receives numerous allegations of fraud related to monetary beneﬁts
programs. Many of these contacts result in investigations of criminal conduct that recover
signiﬁcant sums of money or provide veterans help they need.

Field Examiners Come to Aid of Overcharged Texas Veterans
Many retirement community home housing veteran residents received notices of
overpayments due to the false claims ﬁled by the facility, which claimed their rent as
unreimbursed medical expenses. The facility’s physician also signed falsiﬁed physician
statements for aid and attendance. Hotline contacted VARO ﬁeld examiners, who
conducted a meeting at the facility with the affected beneﬁciaries to deﬁne unreimbursed
medical expenses and assist with requests for the waiver of their overpayments.




                                                                                             13
Semiannual Report to Congress                          April 1, 2007–September 30, 2007


                          Financial Management
VA must provide all its departmental activities with accurate, reliable, and timely
information for sound oversight and decision making. Since 1999, VA has achieved
unqualiﬁed (“clean”) audit opinions on its consolidated ﬁnancial statements (CFS).
OIG audits and reviews identify areas in which VA can improve ﬁnancial management
controls, data validity, and debt management.

OFFICE OF AUDIT
OIG performs audits of ﬁnancial management operations, focusing on adequacy of VA
ﬁnancial management systems in providing managers information needed to efﬁciently
and effectively manage and safeguard VA assets and resources. OIG oversight work
satisﬁes the Chief Financial Ofﬁcer Act of 1990, Public Law 101-576, audit requirements for
Federal ﬁnancial statements and provides timely, independent, and constructive reviews of
ﬁnancial information, programs, and activities. OIG reports provide VA with constructive
recommendations needed to improve ﬁnancial management and reporting throughout the
Department.

Audit Finds $5.4 Million in Questioned Costs in Boston Healthcare System
OIG conducted an audit to assess the validity of allegations of contract irregularities
and the mismanagement and illegal use of funds at the VA Boston Healthcare System.
The audit substantiated contract modiﬁcations were not within the scope of the original
contracts, funding of contract modiﬁcations were not in accordance with appropriations
law, and contract modiﬁcations did not comply with the Federal Acquisition Regulation.
OIG made recommendations to address the issues its auditors found to the Veterans
Integrated Service Network (VISN) 1 Director and the Deputy Assistant Secretary for
Acquisition and Materiel Management. (Audit of Alleged Mismanagement of Government
Funds at the VA Boston Healthcare System)

Better Oversight and Stronger Controls Needed for CHAMPVA
An OIG audit evaluated the effectiveness of VHA’s management of the Civilian Health
and Medical Program of the Department of Veterans Affairs (CHAMPVA). The program,
managed by VHA’s Health Administration Center (HAC), provides health care beneﬁts to
dependents of veterans rated permanently and totally disabled or who died as a result
of service-connected conditions. Auditors found the HAC needed to improve controls to
prevent improper payments and identify overpayments requiring recovery. OIG estimated
that the HAC made overpayments of about $12 million and did not identify $5.1 million in
payments it should have recovered. OIG also found that the HAC’s collection of CHAMPVA
funds was not timely, and that the HAC inappropriately wrote off $114,276 in accounts
receivable. (Audit of the Civilian Health and Medical Program of the Department of
Veterans Affairs)

OFFICE OF INVESTIGATIONS
OIG conducts criminal and administrative investigations related to allegations of serious
misconduct with regard to VA ﬁnancial management. These investigations often indicate
weaknesses and ﬂaws in VA ﬁnancial management.

Tampa Canteen Supervisor Indicted for Theft of Government Funds
An audit at the Tampa VAMC conducted by the Veteran Canteen Service’s audit division
revealed that a supervisor manipulated voids and merchandise refunds for personal gain.
The supervisor was indicted for theft of Government funds. The loss to VA is $33,908.

VA Employee in Tampa Creates Bogus Companies To Collect False Claims
A former employee in the Tampa VAMC travel beneﬁts ofﬁce pled guilty to a criminal
information charging him with conﬂict of interest after an OIG investigation that included
an in-depth audit revealed that the employee created and approved ﬁctitious claims for
patient transportation from four ﬁctitious transportation companies between July 2001 and
September 2002. The loss to VA is $205,000.


14
April 1, 2007–September 30, 2007                             VA Ofﬁce of Inspector General


Baltimore VAMC Employee Sentenced for Childcare Subsidy Fraud
A Baltimore VAMC employee was sentenced to 36 months’ probation and ordered to pay
$24,000 in restitution to VA after a joint OIG and VA police investigation determined she
intentionally failed to report her spouse’s income to remain eligible for Federal childcare
subsidies from 2004 through 2006. OIG discovered this offense while conducting a review
requested by VA of suspicious reimbursements associated with this employee beneﬁts
program.




                                                                                         15
Semiannual Report to Congress                            April 1, 2007–September 30, 2007


                          Procurement Practices

VA spends over $13 billion annually for pharmaceuticals, medical and surgical supplies,
prosthetic devices, information technology (IT), construction, and services. OIG
contract audits focus on compliance with Federal and VA acquisition regulations and cost
efﬁciencies, which result in recommendations for improvement. Preaward and postaward
contract reviews have resulted in $74.6 million in monetary beneﬁts during this reporting
period.

OFFICE OF AUDIT
To improve VA acquisition programs and activities, OIG identiﬁes opportunities to
achieve economy, efﬁciency, and effectiveness for VA national and local acquisitions and
supply chain management. In addition, OIG examines how well major acquisitions are
achieving objectives and desired outcomes. OIG efforts focus on determining whether
the Department is taking advantage of its full purchasing power when it acquires goods
and services. Auditors examine how well VA is managing and safeguarding resources and
inventories, obtaining economies of scale, and identifying opportunities to employ best
practices.

Better Management of Surgical Device Implants Can Save $21.7 Million
An OIG audit found that VHA could reduce procurement costs for selected surgical device
implants (SDI) and needs to strengthen key SDI management controls in the areas of
inventory, patient privacy, and recalls. Using national contracts and blanket purchase
orders instead of the open market could reduce SDI costs by as much as $4.3 million
annually or $21.7 million over 5 years. VHA facilities also need to improve inventory
controls and strengthen patient safeguards related to SDI. Facilities could not effectively
account for purchased devices because they lacked reliable inventory controls and records.
Staff routinely provided SDI manufacturers more medical information and personal data
than the manufacturers required, placing SDI patients at risk for identity theft or other
misuse of information. (Audit of the Acquisition and Management of Selected Surgical
Device Implants)

OFFICE OF HEALTHCARE INSPECTIONS
OHI efforts to improve and evaluate quality of care in VHA include review of procedures
related to procurement. Such reviews play an essential part in maintaining the quality of
health care services for veterans.

Reviewers Find Need To Complete Management Actions in Nevada
An OIG review concluded that the VA Sierra Nevada Health Care System’s managers
need to complete actions already initiated in complications reporting, business rules, and
emergency airway management. Inspectors also found that contracting personnel did not
adequately develop, award, or administer three contracts reviewed. Contracting personnel
need to correct the identiﬁed deﬁciencies and change processes to prevent future
occurrences. (Healthcare Inspection, Quality of Care, Administration, and Contracting
Issues, VA Sierra Nevada Health Care System, Reno, Nevada)

OFFICE OF INVESTIGATIONS
OIG investigates allegations of bribery and kickbacks, bid rigging and antitrust violations,
false claims submitted by contractors, and other fraud relating to VA procurement
activities. In the area of procurement practices, OIG opened ﬁve cases, made three
arrests, and had $495,676 in ﬁnes, restitution, penalties, and civil judgments as well as
savings, efﬁciencies, cost avoidance, and recoveries.

Massachusetts Business Owner Arrested for Shipping Non-Sterile Product
A joint OIG, FDA Ofﬁce of Criminal Investigations, and USPIS investigation determined that
a Massachusetts medical products distributor shipped a drug claimed to be sterile although
the product failed testing for sterility and FDA approval. The company’s owner was


16
April 1, 2007–September 30, 2007                              VA Ofﬁce of Inspector General


indicted for mail fraud, obstruction of an administrative proceeding, and various violations
of the Food, Drug and Cosmetic Act.

Former Fresno VAMC Employee and Contractors Charged with Bribery
A former Fresno VAMC employee, the owner of a construction company, and the owner of a
heating, ventilation, and air conditioning (HVAC) company were indicted by a Federal Grand
Jury for bribery charges. An investigation determined that the former VA employee, in his
capacity as a contracting ofﬁcer’s technical representative, colluded with the owners of the
construction and HVAC companies to submit inﬂated change orders in return for kickback
payments. The employee also received bribes and gratuities consisting of cash payments
from the owners of the companies in return for certifying payroll submittals and progress
payments, and awarding of future contracts. The VA employee was also charged with
soliciting a $10,000 kickback from another construction contractor in an inﬂated change-
order scheme, which the contractor refused to pay.

OFFICE OF CONTRACT REVIEW
The Ofﬁce of Contract Review (OCR) operates under a reimbursable agreement with VA’s
Ofﬁce of Acquisition and Logistics (OA&L) to provide preaward, postaward, and other
requested reviews of vendors’ proposals and contracts. In addition, OCR provides advisory
services to OA&L contracting activities. OCR has a staff of 25, and completed 43 reviews
in this reporting period. The tables that follow provide an overview of OCR performance
during this reporting period.

PREAWARD REVIEWS
Preaward reviews provide information to assist VA contracting ofﬁcers in negotiating fair
and reasonable contract prices and ensuring price reasonableness during the term of the
contract. Preaward reviews identiﬁed $63.5 million in potential cost savings during this
reporting period. In addition to Federal Supply Schedule proposals, preaward reviews
during this reporting period included 10 health care provider proposals—accounting for
$9.7 million of the identiﬁed potential savings. Reports resolved through negotiations by
contracting ofﬁcers continue to sustain a high percentage of recommended savings; for the
16 reports resolved this period, the sustained savings rate was 66 percent.

                                         April 1, 2007–                  Summary
                                      September 30, 2007                  FY 2007

   Preaward Reports Issued                      15                           43

     Potential Cost Savings                $63,523,017                 $133,743,403


POSTAWARD REVIEWS
Postaward reviews ensure vendors’ compliance with contract terms and conditions,
including compliance with Public Law 102-585, the Veterans Health Care Act of 1992, for
pharmaceutical products. OCR reviews resulted in VA recovering contract overcharges
totaling $11.4 million, including nearly $5.4 million related to Veterans Health Care
Act compliance with pricing requirements, recalculation of Federal ceiling prices, and
appropriate status of pharmaceutical products. Postaward reviews continue to play a
critical role in the success of VA’s voluntary disclosure process. Of the 25 postaward
reviews performed, 12 involved voluntary disclosures. In 8 of the 12 reviews, OCR
identiﬁed additional funds due.

                                         April 1, 2007–                  Summary
                                      September 30, 2007                  FY 2007

  Postaward Reports Issued                      25                           39

       Dollar Recoveries                   $11,396,444                  $16,123,982



                                                                                          17
Semiannual Report to Congress                           April 1, 2007–September 30, 2007


SPECIAL REPORTS

                                      April 1, 2007–                  Summary
                                  September 30, 2007                   FY 2007

       Special Reports                       3                             3
 Total OCR Reports Issued                   43                            85

Review Substantiates Health Services Contracts Awarded Improperly
A review of contracts related to the sole-source procurement of health services for
non-afﬁliated entities substantiated that the contracts were not awarded or administered
appropriately. The problems identiﬁed included poor contract formation, inadequate price
reasonableness calculations, and the lack of adequate controls to ensure that VA paid the
agreed-upon price for the services rendered. The VISN Director concurred with OIG’s
recommendation to ensure that all contracting ofﬁcers, contract administrators, contracting
ofﬁcer’s technical representatives, team leaders, chief logistics ofﬁcers, directors, chiefs
of staff, and others involved in the award and administration of contracts for services are
provided training on contract formation, contract administration, and compliance with
VA Directive 1663, Health Care Resources Contracting—Buying, Title 38 U.S.C. 8153.

Review Finds NAC’s Administration of Modiﬁcation Requests Inadequate
OIG reviewed the National Acquisition Center’s (NAC) administration of modiﬁcation
requests by a FSS reseller. Report recommendations were intended to correct deﬁciencies
regarding the reseller’s inadequate submission of required information, Price Reductions
Clause Tracking customer omissions, the reseller’s misrepresentations of contract price
increases as price reductions, and insufﬁcient actions by the contracting ofﬁcer to collect
potential monies owed VA for the reseller’s late reporting of price reductions. The NAC
concurred with all 10 recommendations and submitted implementation plans responsive to
all of the issues.




18
April 1, 2007–September 30, 2007                              VA Ofﬁce of Inspector General


                        Information Management
IT plays a critical role in all VA operations. OIG oversight work in the IT area includes
audits, criminal investigations, and reviews of IT security policies and procedures.
The loss of signiﬁcant amounts of VA data in May 2006 and January 2007 have highlighted
challenges facing VA information security. Since the 2006 data loss, VA has shown
increased awareness of IT security concerns and has completed some efforts aimed at
improvement. OIG has particularly noted VA’s commitment to centralizing IT functions,
funding, and staff under the direction of the Department’s Chief Information Ofﬁcer.
Serious problems remain, however, and OIG will continue close oversight of extensive VA
IT activity.

OFFICE OF AUDIT
OIG performs audits of information management operations and policies, focusing on
adequacy of VA IT security policies and procedures for managing and safeguarding
VA program integrity and patient information security. OIG oversight in IT includes
meeting its statutory requirement to review VA’s compliance with the Federal
Information Security Management Act of 2002 (FISMA), Public Law 107-347, as well
as IT security reviews conducted as part of the CFS audit. These reviews have led
OIG to report information security and security of data and data systems as a major
management challenge for the VA since FY 2000. OIG audit reports present constructive
recommendations needed to improve IT management and security.

FY 2006 FISMA Review Finds Old Issues Unresolved, Adds New Ones
Findings in the annual reviews of VA’s compliance with FISMA have led OIG to report
information security and security of data and data systems as a major management
challenge for VA since FY 2000. The 2006 FISMA assessment again identiﬁed
numerous unresolved recommendations from prior OIG reports and also identiﬁed
new recommendations that need to be fully addressed to mitigate information security
weaknesses. VA needs to implement a centralized IT program that ensures consistent
administration and control of information and data; apply appropriate resources; establish,
modify, and clarify IT policies and procedures; implement and enforce security controls,
and institute a mechanism to ensure system vulnerabilities are evaluated and corrected
across the Department. (FY 2006 Audit of VA Information Security Program)

OFFICE OF INVESTIGATIONS
OI investigates theft of IT equipment or data, network intrusions, identity theft, and child
pornography. In the area of information management crimes, OIG opened nine cases,
made one arrest, and had $68,931 in ﬁnes, restitution, penalties, and civil judgments as
well as savings, efﬁciencies, cost avoidance, and recoveries.

Birmingham Data Loss Reveals Weaknesses in Information Security
OIG’s administrative review of the January 2007 disappearance of a VA-owned external
hard drive from the VAMC in Birmingham, believed to contain personally identiﬁable
information for over 250,000 veterans and 1.3 million medical providers, revealed a
dysfunctional management structure that led to an overall breakdown of management
oversight, controls, and accountability of the VAMC Birmingham research center.
OIG recommendations included taking administrative action against the employee who
failed to safeguard the missing data and deleted ﬁles to hide the extent of the problem,
as well as against the managers of the research program and the VAMC Director. Other
recommendations involved programmatic, policy, and organizational changes to alleviate
identiﬁed weaknesses. The criminal investigation remains open and the missing external
hard drive has not been recovered. To date, however, there is no indication that the
data has been used to commit identity theft. (Administrative Investigation, Loss of VA
Information, VA Medical Center, Birmingham, Alabama)




                                                                                           19
Semiannual Report to Congress                           April 1, 2007–September 30, 2007


Mississippi Veteran Receives Wrong Documents, Tries to Blackmail VA
An OIG investigation disclosed that a Jackson, Mississippi, VARO mistakenly mailed a
veteran several service records and medical documents belonging to other veterans.
The recipient acknowledged receipt of these documents, but she refused to disclose their
location or return them to either VARO management or OIG. Using a search warrant,
OIG investigators seized all VA records at the veteran’s Gulfport residence not belonging to
her. The veteran was indicted and convicted in an attempt to blackmail VA after she tried
to coerce VA ofﬁcials to provide her an appeal hearing and a potential favorable decision in
exchange for not exposing VA’s mistake to the news media.




20
April 1, 2007–September 30, 2007                             VA Ofﬁce of Inspector General


                  Other Signiﬁcant OIG Activities
CONGRESSIONAL TESTIMONY
Testimony Highlights VA Contracting Oversight Deﬁciencies
Belinda J. Finn, Assistant Inspector General (AIG) for Auditing, accompanied by
Maureen Regan, Counselor to the Inspector General, and Nicholas Dahl, Director of the
Bedford Audit Operations Division, testiﬁed at a June 27, 2007, House Committee on
Veterans’ Affairs Subcommittee on Oversight and Investigations hearing on VA internal
contracting oversight deﬁciencies, discussing OIG’s May 31, 2007, report, Audit of Alleged
Mismanagement of Government Funds at the VA Boston Healthcare System. OIG’s
testimony highlighted areas where VHA management can improve controls over contract
modiﬁcations, use of expired funds, and approval of projects to prevent similar incidents
from occurring elsewhere in VHA. As a result of the report, the VISN 1 Director initiated an
administrative investigation to determine whether disciplinary action is warranted against
VA Boston Healthcare System employees involved. In addition, the Deputy Assistant
Secretary for Acquisition and Logistics revoked the Chief of the Purchasing and Contracting
Section’s warrant authority.

OIG Testimony Highlights Challenges Facing VA Programs in Rural Areas
OHI Regional Director Julie Watrous, R.N., and Michael Shepherd, M.D., an OHI physician,
appeared before the Senate Committee on Veterans’ Affairs regarding health care and
beneﬁts for veterans in Hawaii. In hearings on August 21 and 23, 2007, OIG discussed
challenges speciﬁc to the VA Paciﬁc Islands Health Care System and to rural VA
facilities throughout the United States. OIG reports identiﬁed problems in four general
categories: physician vacancies and recruiting specialty physicians (such as cardiologists,
gastroenterologists, and orthopedic surgeons); lack of support staff; insufﬁcient space; and
lack of equipment.

OIG Testiﬁes on Follow-Up to VAMC Salisbury, NC, Inspections
AIG for Healthcare Inspections Dr. David Daigh testiﬁed before the House Committee on
Veterans’ Affairs Subcommittee on Oversight and Investigations on April 19, 2007. He
described the OIG evaluation of QM in VHA nationwide in FY 2004–2006, and the results
of a September 25, 2006, OIG CAP review of the W.G. (Bill) Hefner VA Medical Center,
Salisbury, North Carolina. He also described a June 2005 report by VHA’s Ofﬁce of the
Medical Inspector (OMI) on the delivery of surgical services at the Salisbury medical center
and OIG’s follow-up inspection on that OMI report, conducted April 9–13, 2007. OIG
committed to doing regular follow up of all published OMI reports.

OTHER EMPLOYEE-RELATED INVESTIGATIONS
Former Washington, DC, VA Employee and Volunteer Sentenced for Fraud
A former Washington, DC, VAMC employee was sentenced to 15 months’ incarceration and
24 months’ probation and a VAMC volunteer was sentenced to 33 months’ incarceration
and 24 months’ probation. Both defendants were also ordered to jointly pay $20,500 in
restitution. The investigation revealed that the volunteer conspired with the VA employee
to have a fraudulent beneﬁciary form placed in a dying VA employee’s personnel folder
so that $20,500 from the Federal Employees Group Life Insurance would be paid to the
volunteer instead of the rightful beneﬁciaries following the employee’s death.

Impostor at American Lake Wore Unauthorized Military Medals Illegally
An Army veteran in Washington State was sentenced to 500 hours’ community service
and 2 years’ probation after pleading guilty to illegally wearing military medals and
decorations. During sentencing, the judge ordered the community service to be performed
at the Tahoma National Cemetery “to serve those who died serving this country.” An OIG
investigation revealed that between November 2005 and March 2006, the defendant falsely
represented himself to veterans and active duty military as a U.S. Marine Corps chaplain
and a counselor at the American Lake VAMC.



                                                                                         21
Semiannual Report to Congress 	                           April 1, 2007–September 30, 2007


Two Philadelphia Employee Union Ofﬁcials Caught Embezzling $184,000
A joint investigation by OIG and the Department of Labor’s Ofﬁce of Labor Management
Standards revealed that a VA employee, who was also the union president at the
Philadelphia VAMC, and another VAMC employee, who was the secretary-treasurer of the
same union local, embezzled union dues by depositing them into their personal and various
union accounts they controlled and by co-signing checks drawn on the union’s business
account. The two pled guilty to embezzling $184,000 from members’ dues payments. The
union president retired and both left their union positions.

Threats Made Against VA Employees
During this reporting period the OIG opened 15 criminal investigations resulting from
threats made against VA facilities and employees. Among them were the following:
     • 	A VA employee was arrested for threats to shoot Sacramento VAMC co-workers after
        telling certain co-workers that he would let them know when not to report to work,
        because on that day he was planning to come to work and start shooting.
     • 	A veteran pled guilty to mailing numerous threats to VA employees in letters mailed
        to the Madison VAMC and the VA Outpatient Clinic in Rockford, Illinois. The veteran
        also mailed a letter to President Bush containing a substance later identiﬁed as brown
        sugar.
     • 	A veteran who threatened two VA employees at the Little Rock VAMC before
        threatening a VA police investigator was indicted and arrested for threatening to
        assault a Federal law enforcement ofﬁcer. The veteran was subsequently remanded
        to a Federal detention facility for a 45-day psychiatric evaluation.
     • 	A veteran, disgruntled after being denied beneﬁts numerous times for a post­
        traumatic stress disorder claim, e-mailed a threat to the Nashville VARO, giving a
        10-day deadline to award his claim or he would explore his “homicidal ideations” on
        them. He was arrested and remanded into the custody of the U.S. Marshals Service
        pending further judicial action.
     • 	A veteran was charged with intimidating a Government employee after admitting to
        OIG special agents that he left over 20 threatening voicemails on the work phone of a
        San Francisco VA employee within a 24-hour period. The calls threatened gang rape
        and other violent sexual acts.

Fugitive Felons Arrested with Assistance of OIG
Veterans and VA employees continue to be identiﬁed and apprehended as a direct result of
the OIG Fugitive Felon Program. To date 20.4 million felony warrants have been received
from the National Crime Information Center and participating states resulting in 35,577
investigative leads being referred to law enforcement agencies. Over 1,700 fugitives have
been apprehended as a direct result of these leads. During this reporting period, the 100th
VA employee was arrested. Among the arrests made by OIG, VA police, U.S. Marshals,
and local police during this reporting period were the following:
     • 	A veteran wanted for murder and possession of a controlled substance arrested at the
        Bay Pines VAMC.
     • 	A veteran arrested at the Bedford VAMC on charges of attempted murder and armed
        robbery.
     • 	A Jackson VAMC employee arrested as a result of two felony warrants for sex crimes
        against a child.
     • 	A Little Rock VAMC employee arrested on state charges of sexual assault.
     • 	A Biloxi VAMC nurse wanted for conspiracy to smuggle drugs and other contraband
        into a state prison.
Since the inception of the program in 2002, OIG has identiﬁed $472.8 million in estimated
overpayments, with an estimated cost avoidance of $529.5 million.




22
        April 1, 2007–September 30, 2007                           VA Ofﬁce of Inspector General


Acquisition Manager Reprised Against Contracting Ofﬁcer
An OIG administrative investigation substantiated that a VA acquisition manager engaged in reprisal,
a prohibited personnel practice, when he issued a letter of counseling and threatened to demote a
subordinate contracting ofﬁcer for refusing to make an unlawful sole-source contract award. The
manager also made false statements to investigators regarding his activities and conversations
concerning the procurement. His actions attempted to usurp the contracting ofﬁcer’s authority under
Federal Acquisition Regulation, and violated merit system principles established in Federal law. VA
ofﬁcials concurred with our recommendations and took administrative disciplinary action against the
manager.




                                                                                               23
             Semiannual Report to Congress                       April 1, 2007–September 30, 2007



                                             APPENDIX A

                            DEPARTMENT OF VETERANS AFFAIRS
                              OFFICE OF INSPECTOR GENERAL
                                         REPORTS

  Report                                                             Funds Recommended
 Number/                                                                 for Better Use
Issue Date                    Report Title                           OIG        Management   Questioned Costs


COMBINED ASSESSMENT PROGRAM REVIEWS

07-00060-121        Combined Assessment Program Review of
4/27/2007           the Clement J. Zablocki VA Medical Center,
                    Milwaukee, Wisconsin
07-00163-128        Combined Assessment Program Review of
5/10/2007           the William Jennings Bryan Dorn VA Medical
                    Center, Columbia, South Carolina
07-00472-138        Combined Assessment Program Review of
5/29/2007           the VA Southern Nevada Healthcare System,
                    Las Vegas, Nevada
07-00282-140        Combined Assessment Program Review
6/1/2007            of the Carl T. Hayden VA Medical Center,
                    Phoenix, Arizona
06-02820-141        Combined Assessment Program Review of
6/15/2007           the VA Eastern Kansas Health Care System,
                    Leavenworth, Kansas
06-02819-145        Combined Assessment Program Review
6/18/2007           of the VA Eastern Colorado Health Care
                    System, Denver, Colorado
07-00604-148        Combined Assessment Program Review of
6/19/2007           the Michael E. DeBakey VA Medical Center,
                    Houston, Texas
07-00161-159        Combined Assessment Program Review of
7/2/2007            the VA Gulf Coast Veterans Health Care
                    System, Biloxi, Mississippi
07-00917-163        Combined Assessment Program Review of
7/6/2007            the Dayton VA Medical Center, Dayton, Ohio
07-00578-164        Combined Assessment Program Review
7/10/2007           of the Canandaigua VA Medical Center,
                    Canandaigua, New York
07-01229-165        Combined Assessment Program Review
7/11/2007           of the Aleda E. Lutz VA Medical Center,
                    Saginaw, Michigan
07-00169-166        Combined Assessment Program Review of
7/11/2007           the Fargo VA Medical Center, Fargo, North
                    Dakota




24     •     Appendix
April 1, 2007–September 30, 2007                                VA Ofﬁce of Inspector General


  Report                                                             Funds Recommended
 Number/                                                                 for Better Use
Issue Date                Report Title                               OIG        Management      Questioned Costs


07-00708-170    Combined Assessment Program Review of
7/18/2007       the St. Cloud VA Medical Center, St. Cloud,
                Minnesota
07-00577-171    Combined Assessment Program Review of
7/19/2007       the Northport VA Medical Center, Northport,
                New York
07-00990-172    Combined Assessment Program Review of
7/19/2007       the Jonathan M. Wainwright Memorial VA
                Medical Center, Walla Walla, Washington
07-01572-178    Combined Assessment Program Review
7/31/2007       of the Martinsburg VA Medical Center
                Martinsburg, West Virginia
07-00542-179    Combined Assessment Program Review of
8/1/2007        the North Florida/South Georgia Veterans
                Health System, Gainesville, Florida
                ,
07-01149-182    Combined Assessment Program Review of
8/2/2007        the Cincinnati VA Medical Center, Cincinnati,
                Ohio
07-01605-186    Combined Assessment Program Review
8/6/2007        of the VA Central California Health Care
                System, Fresno, California
07-01158-190    Combined Assessment Program Review
8/21/2007       of the South Texas Veterans Health Care
                System, San Antonio, Texas
07-01408-197    Combined Assessment Program Review of
9/11/2007       the Memphis VA Medical Center, Memphis,
                Tennessee
07-01230-210    Combined Assessment Program Review
9/25/2007       of the Tomah VA Medical Center, Tomah,
                Wisconsin


HEALTHCARE INSPECTIONS

07-00589-118    Healthcare Inspection, Research Practices at
4/20/2007       Carl T. Hayden VA Medical Center, Phoenix,
                Arizona
06-01732-119    Healthcare Inspection, Quality of Care Issues
4/24/2007       in Cardiology, Bay Pines VA Healthcare
                System, Bay Pines, Florida
06-03671-120    Healthcare Inspection, Quality of Polytrauma
4/25/2007       Care, Environmental and Safety Issues,
                Minneapolis VA Medical Center, Minneapolis,
                Minnesota
07-01349-126    Healthcare Inspection, Implementing VHA’s
5/10/2007       Mental Health Strategic Plan Initiatives for
                Suicide Prevention




                                                                                        Appendix     •   25
              Semiannual Report to Congress                         April 1, 2007–September 30, 2007


  Report                                                           Funds Recommended
 Number/                                                               for Better Use
Issue Date                   Report Title                          OIG        Management   Questioned Costs


06-03706-127       Healthcare Inspection, Review of the
5/10/2007          Care and Death of a Veteran Patient, VA
                   Medical Centers, St. Cloud and Minneapolis,
                   Minnesota
06-03742-142       Healthcare Inspection, Alleged Quality of
6/6/2007           Care Issues, VA Medical Center, Atlanta,
                   Georgia
07-00050-146       Healthcare Inspection, Appointment
6/18/2007          Scheduling and Administrative Issues, Carl T.
                   Hayden VA Medical Center, Phoenix, Arizona
07-02191-147       Healthcare Inspection, Quality of Care
6/18/2007          and Patient Safety Issues, Martinsburg VA
                   Medical Center, Martinsburg, West Virginia
07-00029-151       Assessment of Legionnaire’s Disease Risk
6/20/2007          in Veterans Health Administration Inpatient
                   Facilities
07-01159-153       Healthcare Inspection, Review of
6/25/2007          Recommendations, El Paso VA Health Care
                   System, El Paso, Texas
06-01319-156       Healthcare Inspection, Management of
6/29/2007          Government Resources and Personnel
                   Practices VA, North Texas Health Care
                   System, Dallas, Texas
06-01472-158       Healthcare Inspection, Nursing Shortage
6/29/2007          and Management Issues, VA Medical Center,
                   Oklahoma City, Oklahoma
07-00561-167       Healthcare Inspection, Patient Suicide VA
7/11/2007          Medical Center, Augusta, Georgia
07-02121-168       Healthcare Inspection, Alleged Quality
7/13/2007          Control Issues in Supply Processing and
                   Distribution, Carl T. Hayden VA Medical
                   Center, Phoenix, Arizona
07-01749-169       Healthcare Inspection, Quality of Care and
7/17/2007          Communication Issues, VA Medical Center,
                   Louisville, Kentucky
07-01305-177       Healthcare Inspection, Delayed Cancer
7/24/2007          Diagnosis, VA Greater Los Angeles
                   Healthcare System, Los Angeles, California
07-00654-176       Healthcare Inspection, Alleged Suspicious
7/25/2007          Death St. Louis VA Medical Center St. Louis,
                   Missouri
07-01796-181       Healthcare Inspection, Follow-Up Evaluation
8/2/2007           of the W.G. (Bill) Hefner VA Medical Center,
                   Salisbury, North Carolina
07-01923-183       Healthcare Inspection, Alleged Delay in
8/6/2007           Diagnosis and Treatment, VA Eastern
                   Colorado Health Care System, Denver,
                   Colorado

26    •      Appendix
April 1, 2007–September 30, 2007                                VA Ofﬁce of Inspector General


  Report                                                             Funds Recommended
 Number/                                                                 for Better Use
Issue Date                Report Title                               OIG        Management      Questioned Costs


07-01219-194    Healthcare Inspection, Alleged Practice of
8/29/2007       Medicine by Unlicensed Research Assistants,
                South Texas Veterans Health Care System,
                San Antonio, Texas
07-01551-195    Healthcare Inspection, Quality of Care,
9/11/07         Administration, and Contracting Issues, VA
                Sierra Nevada Health Care System, Reno,
                Nevada
07-01119-196    Healthcare Inspection, Quality of Care Issues
9/13/07         Involving Manchester VA Medical Center and
                VA Boston Healthcare System
07-00380-202    Informational Report, Quantitative
9/13/07         Assessment of Care Transition: The
                Population-Based LC Database
07-00457-206    Healthcare Inspection, Delay in Treatment
9/14/2007       and Quality of Care Issues, James A. Haley
                VA Medical Center, Tampa, Florida
07-00562-209    Healthcare Inspection, Quality of Care Issues
9/25/2007       at the Dayton VA Medical Center, Dayton,
                Ohio
07-00569-212    Healthcare Inspection, Quality of Care
9/26/2007       Issues, Clement J. Zablocki VA Medical
                Center, Milwaukee, Wisconsin
06-03175-208    Healthcare Inspection, Alleged Inappropriate
9/28/2007       Treatment and Patient Abuse, Edward Hines,
                Jr. VA Hospital, Hines, Illinois
07-01915-214    Healthcare Inspection, Patient Safety Issues
9/27/07         and Privacy Act Violations, Fargo VA Medical
                Center, Fargo, ND
06-00980-217    Healthcare Inspection, Comparison of VA
9/28/2007       and University Afﬁliated IRB Compliance with
                VHA Handbook 1200.5
06-02663-218    Healthcare Inspection, Quality of Care
9/28/2007       Issues, Wilkes-Barre VA Medical Center,
                Wilkes-Barre, Pennsylvania


INTERNAL AUDITS

06-00931-139    Audit of Alleged Mismanagement of                                                  $5,396,398
5/31/2007       Government Funds at the VA Boston
                Healthcare System
06-03637-191    Audit of Veterans Health Administration               $89,081          $89,081
8/22/2007       Vehicle Fleet Management
07-00616-199    Audit of the Veterans Health Administration’s
9/10/2007       Outpatient Waiting Times




                                                                                        Appendix     •   27
              Semiannual Report to Congress                              April 1, 2007–September 30, 2007


  Report                                                                Funds Recommended
 Number/                                                                    for Better Use
Issue Date                   Report Title                               OIG        Management   Questioned Costs

06-02860-215       Audit of VA’s Response to Hurricane Katrina
9/28/2007
06-03541-219       Audit of the Civilian Health and Medical          $17,200,000    $17,200,000
9/28/2007          Program of the Department of Veterans
                   Affairs
06-01623-220       Audit of Veterans Beneﬁts Administration          $50,800,000    $50,800,000
9/28/2007          Controls to Minimize Compensation Beneﬁt
                   Overpayments
06-03677-221       Audit of the Acquisition and Management of        $21,750,901    $21,750,901       $197,261
9/28/2007          Selected Surgical Device Implants
06-00035-222       FY 2006 Audit of VA Information Security
9/28/2007          Program


OTHER OFFICE OF AUDIT REVIEWS

07-00061-123       Peer Review of Department of State and
5/2/07             Broadcasting Board of Governors, Ofﬁce of
                   Inspector General, Ofﬁce of Audits
07-01816-175       Independent Review of VA’s Fiscal Year
9/10/2007          2006 Special Disabilities Capacity Report
                   (Attestation as of July 13, 2007)


ADMINISTRATIVE INVESTIGATIONS

06-02238-136       Administrative Investigation, Reprisal and
5/22/2007          False Statements, Acquisition Operations
                   Service, VA Central Ofﬁce
07-01083-157       Administrative Investigation, Loss of VA
6/29/2007          Information, VA Medical Center, Birmingham,
                   Alabama
06-01385-188       Administrative Investigation, Misuse of
8/21/2007          Time, Resources, and Title, and Failure to
                   Administer Policy, VA Medical Center, Lincoln,
                   Nebraska
06-02081-189       Administrative Investigation, Misuse of
8/21/2007          Resources and Position VA Medical Center,
                   Oklahoma City, Oklahoma


TOTAL:             66 Reports                                       $89,839,982    $89,839,982     $5,595,659




28    •      Appendix
April 1, 2007–September 30, 2007                             VA Ofﬁce of Inspector General


                                                APPENDIX B


        STATUS OF OIG REPORTS UNIMPLEMENTED FOR OVER 1 YEAR
The Federal Acquisition Streamlining Act of 1994, Public Law 103-355, requires Federal agencies
to complete ﬁnal action on each OIG report recommendation within 12 months after the report
is ﬁnalized. OIG is required to identify unimplemented recommendations in its Semiannual
Report to Congress until the ﬁnal action is completed. This appendix summarizes the status of
OIG unimplemented reports and recommendations. The following chart lists the total number of
unimplemented OIG reports and recommendations by organization. It also provides the total number
of unimplemented reports and recommendations issued over 1 year ago (September 30, 2006, and
earlier). Four reports open less than 1 year on the following chart have actions at two ofﬁces.



                       Unimplemented OIG Reports and Recommendations

      VA                                                                Issued 9/30/06
                                    Total
     Ofﬁce                                                                 and Earlier

                      Reports             Recommendations       Reports          Recommendations

      VHA                66                       226              12                    42

      VBA                 1                        3               0                     0

      OI&T1               5                        53              2                     18

      OM2                 1                        3               1                     3

      OSP3                1                        6               0                     0




1
    Ofﬁce of Information and Technology (OI&T)

2
    Ofﬁce of Management (OM)

3
    Ofﬁce of Operations, Security, and Preparedness (OSP)





                                                                                   Appendix   •    29
                     Semiannual Report to Congress                                   April 1, 2007–September 30, 2007




                                 Reports Unimplemented for Over 1 Year

  Report            Date of                      Title                    Responsible             Open             Monetary
  Number             Issue                                               Organization(s)     Recommendations        Impact

                                  Audit of VHA’s Part-Time Physician
02-01339-85        4/23/2003                                                  VHA                 3 of 17
                                         Time and Attendance

                                    Healthcare Inspection, VHA’s
03-00391-138       5/3/2004         Community Residential Care                VHA                 1 of 11
                                          (CRC) Program

                                   Issues at VA Medical Center Bay
                                    Pines, Florida and Procurement
04-01371-177       8/11/2004         and Deployment of the Core               VHA                 1 of 67
                                    Financial and Logistics System
                                               (CoreFLS)

                                     Audit of the Veterans Health
04-02887-169       7/8/2005          Administration’s Outpatient              VHA                 5 of 8
                                       Scheduling Procedures

                                  Healthcare Inspection, Inspection
04-00235-180       8/4/2005       of Veterans Health Administration           VHA                 9 of 9
                                   Patient Transportation Services

                                   Audit of VA Acquisition Practices
04-02330-212       9/30/2005      for the National Vietnam Veterans           VHA                 1 of 3
                                          Longitudinal Study

                                  Audit of VA Acquisitions for Other
04-03178-139       5/5/2006                                                   OM                  3 of 20
                                        Government Agencies

                                   Review of Access to Care in the
05-03028-145       5/17/2006                                                  VHA                 2 of 9
                                   Veterans Health Administration

                                     Audit of the Veterans Health
04-00018-155       6/14/2006        Administration’s Acquisition of           VHA                 2 of 4          $6,000,000
                                    Medical Transcription Services


                                    Review of Issues Related to the
06-02238-163       7/11/2006       Loss of VA Information Involving           OI&T                3 of 6
                                  the Identity of Millions of Veterans


                                   Combined Assessment Program
05-03281-168       7/17/2006       Review of the VA Medical Center            VHA                 1 of 12
                                          Huntington, WV

                                   Combined Assessment Program
                                    Review of the VA New Jersey
06-01128-201       9/11/2006                                                  VHA                 5 of 25
                                  Health Care System, East Orange,
                                             New Jersey

                                  Evaluation of the Veterans Health
04-00888-215       9/20/2006       Administration Homeless Grant              VHA                11 of 29
                                       and Per Diem Program




        30     •      Appendix
        April 1, 2007–September 30, 2007                                  VA Ofﬁce of Inspector General




                             Reports Unimplemented for Over 1 Year

  Report         Date of                      Title                    Responsible              Open                   Monetary
  Number          Issue                                               Organization(s)      Recommendations              Impact

                                FY 2005 Audit of VA Information
05-00055-216   9/20/2006                                                   OI&T                 15 of 17
                                       Security Program

                                Review of Selected Financial and
05-01978-226   9/27/2006       Administrative Operations at VISN           VHA                  1 of 29
                                      1 Medical Facilities

                                FY 2006 Audit of VA Information
06-00035-222   9/28/2007                                                   OI&T                 28 of 30
                                      Security Program*


 TOTALS                                                                                           91                  $6,000,000


       * Although this FY 2006 FISMA audit is not yet over 1 year old, it contains OIG recommendations from earlier
       FISMA audits, which is the basis for including it in this presentation.




                                                                                                   Appendix      •      31
          Semiannual Report to Congress                            April 1, 2007–September 30, 2007




                                         APPENDIX C

          INSPECTOR GENERAL ACT REPORTING REQUIREMENTS
The table below cross-references the speciﬁc pages in this Semiannual Report to the reporting
requirements where they are prescribed by the Inspector General Act of 1978, Public Law 95-452, as
amended by the Inspector General Act Amendments of 1988, Public Law 100-504, and the Omnibus
Consolidated Appropriations Act of 1997, Public Law 104-208.
The Federal Financial Management Improvement Act of 1996, Public Law 104-208, requires OIG to
report instances and reasons when VA has not met the intermediate target dates established in the
VA remediation plan to bring VA’s ﬁnancial management system into substantial compliance with the
Act. VA reported that it substantially met its milestones for FY 2007 based on its most recent status
reports (August and September).


     IG Act                              Reporting
                                                                                     Status
   References                          Requirements

                      Review of legislative, regulatory, and                Commented on
 Section 4 (a) (2)
                      administrative proposals                              595 items

 Section 5 (a) (1)    Signiﬁcant problems, abuses, and deﬁciencies          See pages 7-23

                      Recommendations with respect to signiﬁcant
 Section 5 (a) (2)                                                          See pages 7-23
                      problems, abuses, and deﬁciencies
                      Prior signiﬁcant recommendations on which
 Section 5 (a) (3)                                                          See pages 29-31
                      corrective action has not been completed
                      Matters referred to prosecutive authorities and
 Section 5 (a) (4)                                                          See pages 7-23
                      resulting prosecutions and convictions
                      Summary of instances where information was
 Section 5 (a) (5)                                                          None
                      refused
                      List of audit reports by subject matter,
 Section 5 (a) (6)    showing dollar value of questioned costs and          See pages 24-28
                      recommendations that funds be put to better use
 Section 5 (a) (7)    Summary of each particularly signiﬁcant report        See pages 7-23
                      Statistical tables showing number of reports and
 Section 5 (a) (8)    dollar value of questioned costs for unresolved,      See page 33
                      issued, and resolved reports
                      Statistical tables showing number of reports and
                      dollar value of recommendations that funds be put
 Section 5 (a) (9)                                                          See page 33
                      to better use for unresolved, issued, and resolved
                      reports
                      Summary of each audit report issued before
 Section 5 (a)
                      this reporting period for which no management         See page 33
 (10)
                      decision was made by end of reporting period
 Section 5 (a)
                      Signiﬁcant revised management decisions               None
 (11)
 Section 5 (a)        Signiﬁcant management decisions with which the
                                                                            None
 (12)                 Inspector General is in disagreement
                      Information described under section 5(b) of the
 Section 5 (a)
                      Federal Financial Management Improvement Act of       See top of this page
 (13)
                      1996 (Public Law 104-208)




32    •    Appendix
April 1, 2007–September 30, 2007                      VA Ofﬁce of Inspector General



Table 1: Resolution Status of Reports with Questioned Costs



                                                                              Dollar Value
                     RESOLUTION STATUS                          Number
                                                                              (In Millions)
 No management decision by 3/31/07                                 0                    $0
 Issued during reporting period                                    1                   $0.2
   Total inventory this period                                     1                   $0.2
 Management decisions during the reporting period
 Disallowed costs (agreed to by management)                        1                   $0.2
 Allowed costs (not agreed to by management)                       0                     $0
   Total management decisions this reporting period                1                   $0.2
   Total carried over to next period                               0                    $0




Table 2: Resolution Status of Reports with Recommended Funds To Be
Put To Better Use By Management


                                                                              Dollar Value
                     RESOLUTION STATUS                          Number
                                                                              (In Millions)
 No management decision by 3/31/07                                 0                    $0
 Issued during reporting period                                    4                $89.8
   Total inventory this period                                     4               $89.8
 Management decisions during the reporting period
 Agreed to by management                                           4                  $89.8
 Not agreed to by management                                       0                     $0
   Total management decisions this reporting period                4                  $89.8
   Total carried over to next period                               0                    $0




                                                                            Appendix     •    33
Copies of this report are available to the public. Written requests should be sent to:

Ofﬁce of the Inspector General (53A)
Department of Veterans Affairs
810 Vermont Avenue, NW
Washington, DC 20420

The report is also available on our website:
http://www.va.gov/oig/publications/semiann/reports.asp
For further information regarding VA OIG, you may call 202-565-8620.




Cover photo courtesy Department of Defense
                                                                      VA OIG Semiannual Report to Congress
Help VA’s Secretary ensure the integrity of departmental
operations by reporting suspected criminal activity, waste, or
abuse in VA programs or operations to the Inspector General
Hotline.


                  (CALLER CAN REMAIN ANONYMOUS)




To Telephone:            (800) 488-8244
                         (800) 488-VAIG
To FAX:                  (202) 565-7936

To Send
Correspondence:          Department of Veterans Affairs
                         Inspector General Hotline (53E)
                         P.O. Box 50410
                         Washington, DC 20091-0410

Internet Homepage:       http://www.va.gov/oig/contacts/hotline.asp

E-mail Address:          vaoighotline@va.gov




                                                                      September 30, 2007 - Vol. 58


                     Department of Veterans Affairs
                       Ofﬁce of Inspector General
                     Semiannual Report to Congress

                     April 1, 2007 - September 30, 2007
